Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Ventura County Sheriff's Department California
GR-90-01-008

July 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Ventura County Sheriff's Department (VCSD).  The purpose of the grants is to enhance community policing.  The VCSD was awarded a total of $4,543,250 to hire 2 new police officers and redeploy the equivalent of 171.7 existing full-time sheriff's deputies from administrative duties to community policing.

We found the VCSD to be in compliance with COPS' grant requirements.  We reviewed the VCSD's compliance with seven essential grant conditions and found no weaknesses in each of the areas we tested:  budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, retention of officer positions, redeployment tracking, and community policing.

Our audit objectives, scope and methodology appear in Appendix I.